<html>
<title> - H. CON. RES. 352, H. RES. 500, H. CON. RES. 297, H. CON. RES. 275, AND H. RES. 259</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
H. CON. RES. 352, H. RES. 500, H. CON. RES. 297, H. CON. RES. 275, AND 
                              H. RES. 259

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2000

                               __________

                           Serial No. 106-167

                               __________

    Printed for the use of the Committee on International Relations


                                <snowflake>



Available via the World Wide Web: http://www.house.gov/international--
relations


                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
 68-019 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                  Nicolle A. Sestric, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Con. Res. 352, expressing the sense of Congress 
  regarding manipulation of the mass media and intimidation of 
  the independent press in the Russian Federation, expressing 
  support for freedom of speech and the independent media in the 
  Russian Federation, and calling on the President of the United 
  States to express his strong concern for freedom of speech and 
  the independent media in the Russian Federation................     1
Markup of H. Res. 500, expressing the sense of the House of 
  Representatives concerning the violence, breakdown of rule of 
  law, and troubled pre-election period in the Republic of 
  Zimbabwe.......................................................     8
Markup of H. Con. Res. 297, congratulating the Republic of 
  Hungary on the millennium of its foundation as a state.........    14
Markup of H. Con. Res. 275, expressing the sense of Congress with 
  regard to Iraq's failure to release prisoners of war from 
  Kuwait and nine other nations in violation of international 
  agreements.....................................................    15
Markup of H. Res. 259, supporting the goals and ideals of the 
  Olympics.......................................................    20

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations:
    Concerning H. Con. Res. 352..................................    24
    Concerning H. Res. 500.......................................    27

Bills and amendments:

H. Con. Res. 352.................................................    29
H. Res. 500......................................................    37
    Amendment offered by Mr. Royce to H. Res. 500................    42
H. Con. Res. 297.................................................    43
H. Con. Res. 275.................................................    46
    Amendment offered by Mr. Rohrabacher to H. Con. Res. 275.....    51
H. Res. 259......................................................    52



H. CON. RES. 352, H. RES. 500, H. CON. RES. 297, H. CON. RES. 275, AND 
                              H. RES. 259

                              ----------                              


                        THURSDAY, JUNE 15, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will be in order. Ladies and 
gentlemen of the Committee, we will meet today in open session 
pursuant to notice to mark up several resolutions.


   house concurrent resolution 352, regarding press freedom in russia


    The first resolution will be House Concurrent Resolution 
352, relating to press freedom in Russia. The Chair lays the 
resolution before the Committee. The clerk will report the 
title of the resolution.
    Ms. Bloomer. H. Con. Res. 352, concurrent resolution 
expressing the sense of the Congress regarding manipulation of 
the mass media and intimidation of the independent press and 
the Russian Federation, expressing support for freedom of 
speech and the independent media in the Russian Federation, and 
calling on the President of the United States to express his 
strong concern for freedom of speech and the independent media 
in he Russian Federation.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for the amendment. Clerk will read.
    Ms. Bloomer. Whereas almost all of the large printing 
plants, publishing houses, and newspaper----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point. This resolution is in the original jurisdiction of the 
Full Committee. I now recognize myself briefly on the 
resolution.
    House Concurrent Resolution 352, which I have introduced 
along with Mr. Lantos and Mr. Smith, makes it is clear that the 
Congress is greatly concerned by the treatment of the Russian 
media by President Vladimir Putin and by his government's 
increasingly apparent lack of respect for freedom of expression 
in general in Russia.
    After years of extensive privatization of Russian state-
owned enterprises, little privatization has been carried in 
major segments of the Russian media.
    Important segments, such as large printing and publishing 
houses and nationwide television frequencies and broadcasting 
facilities, have been only partially privatized if they have 
been privatized at all.
    That failure to privatize key segments of the media 
presents a tempting opportunity for Russian officials to 
manipulate the state-run media for their own ends, and in the 
recent parliamentary and Presidential elections, we saw clear 
evidence that Russian officials have succumbed to that 
temptation.
    As this resolution points out, the Russian Government's 
immense influence over the state-run media was used during 
those elections to openly support friends of the party in power 
in the Kremlin and to attack blatantly and viciously those who 
opposed that party of power.
    Mr. Putin might very well not be president of Russia today 
if such media manipulation had not been used to his advantage.
    In addition to that manipulation of the state-run media, 
this resolution points out that the Russian Government and its 
officials and agencies have also sought to intimidate the 
independent media.
    A new Russian ministry for the press was created last July, 
and the minister for the press stated quite openly that his job 
was to address the so-called aggression of the Russian press.
    Leading Russian editors complained, in an open letter to 
former president Boris Yeltsin in August, that government 
officials were putting pressure on the media, particularly 
through unwarranted raids by tax police.
    In fact, as recently as May 11, masked officers of the 
Russian Federal security service raided the headquarters of 
Media Most, which operates NTV, the largest independent 
national television station in Russia.
    Then just this week the owner of Media Most, Vladimir 
Gusinsky, was arrested on rather vague charges.
    In addition, Russian reporters have been beaten and 
murdered, and police investigations have tended to fail more 
often than not to identify the perpetrators, much less bring 
them to justice.
    Andre Babitsky, a Russian reporter working for Radio Free 
Europe/Radio Liberty covering the war in Chechnya, was arrested 
by the Russian military and then exchanged to unidentified 
Chechens for Russian POWs, a blatant violation of his rights as 
a Russian citizen.
    Another reporter was ordered by police to enter a 
psychiatric clinic for an examination after he wrote articles 
critical of certain Russian officials.
    Beyond these examples of the ongoing intimidation of the 
press by Mr. Putin's government, this resolution points out a 
disturbing fact that is very relevant to freedom of expression 
in general in Russia.
    The Russian Federal security service is now moving to 
ensure total surveillance over the Internet in Russia by 
installing a system by which all transmissions and e-mails 
originating within Russia and sent to parties in Russia can be 
read by its personnel.
    My colleagues in this manner, new structures of 
surveillance over all of Russia's citizens are being created.
    This resolution makes it clear that the Russian 
government's manipulation and intimidation of the media 
threaten the chances for democracy and rule of law in Russia 
and makes it clear that freedom of expression by Russians in 
general is also under attack by that government and its 
agencies.
    This measure calls on our President to make it clear to 
President Putin that the United States insists on respect for 
freedom of speech and of the press in Russia.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. We are dealing here 
with one of the most serious developments since the end of the 
Cold War. I think it is important that we put this outrageous 
incarceration of the head of the only free media in Russia in 
some perspective.
    Boris Yeltsin was not feeling very comfortable with the 
free press, and several years ago, he attempted to intimidate 
this same media operation and demanded that its most successful 
television program, a program which is made up of brilliantly 
designed little puppets with faces of political leaders be 
taken off the air. The leadership of the independent media, 
asked me to go to Moscow and hold a press conference on this 
issue, which I did, and the pressure on the Yeltsin regime, 
apparently from a variety of sources, was sufficient that they 
allowed this political satire to continue. Now, Mr. Putin was 
inducted as the president of Russia with pomp and circumstance, 
which would have made the most status conscious czar rejoice, 
and he is giving the impression that he is the ruler of all the 
Russias.
    When he was asked in Madrid about this outrageous 
incarceration of the head of the independent media, and by the 
way, this incarceration took place in the most notorious prison 
of the Gulag system in Poterka Prison, where the most dangerous 
common criminals are housed and where the lives of people who 
are in that prison are unsafe from their fellow inmates--Putin 
indicated that all this came as a surprise to him.
    Now, there are two possibilities, Mr. Chairman. Putin 
either was lying or he was telling the truth. If he was lying, 
this is an attempt by him to shift the blame for this 
outrageous attack on the free media away from himself and on to 
the shoulders of the so-called independent prosecutor. If, in 
fact, he was telling the truth, my conclusion is even more 
ominous, namely, he is not in control of the Kremlin and even 
more sinister forces are playing political games designed to 
silence for good the last remaining component of free media in 
Russia.
    Our resolution outlines the case clearly and I wish to 
place in the record today's editorials from The New York Times, 
The Washington Post, and The Wall Street Journal on this 
subject.
    Chairman Gilman. Without objection, it will be made part of 
the record.
    Mr. Lantos. The only reservation I have about our 
resolution, Mr. Chairman, and I agreed to cosponsor your 
version of this resolution because I think it is important we 
act on it and the whole House act on it----
    Chairman Gilman. We appreciate your cooperation.
    Mr. Lantos [continuing]. Is the calling on the 
administration to do all kinds of things. Let me state for the 
record that our Ambassador in Moscow, Jim Collins, has been on 
this case full-time since Mr. Gusinsky's arrest, that our 
acting Secretary of State, Strobe Talbott, the Vice President 
and the President, have done everything in their power to 
persuade the Russian Government to put an end to this 
outrageous spectacle. So our calling on the administration to 
do things is gratuitous. There is nothing wrong with it, but I 
want the record to show that our administration is doing its 
utmost to have Mr. Gusinsky released, and at a broader level, 
to have respect for free media observed in Russia.
    I think it is extremely important in dealing with this most 
important matter that no hint of partisanship be present in any 
of our public pronouncements. Our Republican colleagues and our 
Democratic colleagues stand shoulder to shoulder with those of 
us who introduced this resolution, irrespective of political 
partisan and political affiliation. So I strongly ask my 
colleagues to vote for this resolution, but I regret that there 
are hints of political partisanship which have been included in 
this resolution which, in fact, have no place in it.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, for bringing 
this very important resolution before the Committee today. We 
all know that freedom of press is vital, an absolutely 
essential element in a Democratic society. Those of us who are 
concerned about democracy, and I believe that is all of us, and 
human rights around the world are deeply alarmed about what has 
been happening in Russia in recent weeks and months.
    Your outstanding work on this issue and that of our 
colleague and friend, Tom Lantos, is an indication of how 
seriously the Committee and the entire Congress takes this 
issue. The arrest of Vladimir Gusinsky is an alarming 
development that not only reflects the Russian Government's 
antagonism toward one individual, but will certainly have a 
chilling and, more precisely, a freezing effect on the media 
freedom in Russia. His arrest serves as a warning to anyone 
exercising their freedom of expression regardless of their 
point of view that they may be next.
    Mr. Chairman, as you probably know, yesterday 17 
influential business leaders wrote to President Putin to 
protest the arrest of Mr. Gusinsky. They wrote, a precedent has 
been established. One day all of us, practically the entire 
business community, could be listed as political opponents. As 
a matter of fact, Mr. Chairman, on May 23, the Helsinki 
Commission, which I chair, held congressional hearings on the 
human rights picture under the Putin administration, and that 
picture is very bleak. The trend line is going in the opposite 
direction that it should be. Among the witnesses was Igor 
Maleshinko, the first deputy chairman of Media Most. In his 
testimony, Mr. Maleshinko called the May 11 raid on Media Most 
and NTV, ``vengeance for material already published or aired an 
act of intimidation to prevent further investigative reporting 
by the media not only in Moscow, but all over the country.'' 
Clearly Mr. Gusinsky had not been sufficiently intimidated by 
the raid. The move against Mr. Gusinsky is another downward 
indicator in Russia's human rights picture as we see increasing 
reports of harassment of independent media throughout Russia as 
well as independent political and ecological groups.
    I would make this note that when we journey to Bucharest 
for the OSCE, parliamentary assembly in Bucharest, I will be 
leading that delegation, I can assure you we will aggressively 
raise the issue with the members of the Duma. Hopefully, the 
speaker of the Duma will be there, like he was last year, to 
try to get Mr. Gusinsky out of prison as quickly as possible, 
and also to stop the trend line which, again, is going in the 
wrong direction.
    Great resolution, Mr. Chairman. I hope everybody supports 
it.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I just want to join 
with my colleagues to say that these kinds of activities in any 
society would be a frightening development, but to see them 
happening in a country for so long that epitomized assault on a 
free press and a free citizenry is truly frightening. We know 
where Mr. Putin came from, the KGB and the origins of the KGB 
and the NKBD. These kinds of actions would be more 
understandable if they came from a society still controlled by 
the old Soviet KGB and not one supposedly operating under 
democratic institutions.
    The world is watching as Mr. Putin tries to bring order to 
a somewhat chaotic economic and political system in Russia. 
Closing down and assaulting the press will not get the response 
that Mr. Putin is looking for. He will only reignite the 
tensions that have existed for all too long in this century 
between Russia and democratic societies. It will also not bring 
any progress to Russia, but only bring the darkness that 
existed for so long under Stalin. It is clear we all speak with 
one voice here, and I urge the Chairman to move this 
expeditiously to the floor.
    Chairman Gilman. Thank you, Mr. Gejdenson. The Committee 
will stand in recess for the vote.
    [Recess.]
    Mr. Bereuter [presiding]. The Committee will be in order. 
The Chair recognizes the gentleman from Arizona under the 5-
minute rule.
    Mr. Salmon. Thank you. First of all, I would like to 
congratulate Mr. Lantos for addressing this issue early on. He 
introduced a resolution himself about a week ago which I was 
original cosponsor of. We had a hearing with the Helsinki 
Commission about 3 weeks ago in which representatives from 
Media One were able to come and address the body to talk about 
major problems in Russia, and I must agree, I think that our 
message needs to be very, very clear.
    It should not, in my mind, have political overtones within 
the context of our own political system here in this country, 
but it should be very, very clear in the denunciation of the 
atrocities being perpetuated in Russia right now. I am very, 
very concerned about the fact that not long ago, Media One was 
raided first and foremost, and they were raided not because, to 
our understanding, they have done anything illegally or 
criminal, but simply because they spoke in opposition to some 
of the policies of the Putin government.
    So I believe that our message needs to be very, very clear 
from this Congress. I know that Congressman Lantos has been 
working with the administration to address this problem, and I 
believe that they have been doing their part to try to address 
the problems.
    When the President was in Russia a few weeks ago, I know he 
brought up the issue of press freedom. I know it is a concern 
to him. So let's make our message very, very clear that we in 
this country, as partners with Russia, demand that they show 
more sympathy to the freedom of the press, and if they truly 
want to grow as a democracy, if they truly want to reform 
themselves, if they truly want the support of the free world, 
then we have got to give more than just lip service to the 
concept of freedom of the press, and I yield back the balance 
of my time.
    Mr. Bereuter. Are there other Members who wish to be heard 
on the resolution?
    Mr. Lantos, do you know if there are other Members who 
would be returning who want to be heard on this?
    Mr. Lantos. I don't, Mr. Chairman, but if I may take 
another couple of minutes, I would like to add a few thoughts.
    Mr. Bereuter. Without objection, the gentleman is 
recognized.
    Mr. Lantos. Thank you very much.
    This resolution is one of the most important ones we will 
consider in this current session of Congress. Russia is at the 
crossroads. It can move in the direction of developing into a 
democratic and prosperous and peaceful society which will be a 
friend and ally of the United States, and our colleagues in 
western Europe in building a prosperous and peaceful global 
community. Or it can return back to its totalitarian, 
authoritarian, dictatorial directions.
    It is my impression that Mr. Putin is potentially educable. 
If that is a reasonable assumption, this is a very important 
pedagogic device. I think it is extremely important to note 
that the international community of media people has condemned 
this outrageous arrest of the head of the free media. I think 
it is important our European allies speak out as forcefully as 
we are.
    Prime Minister Tony Blair, who has had early and good 
relations where Mr. Putin is in a particularly propitious 
position to exert whatever influence he has, but I think it is 
extremely important for us to realize, since we passed so many 
resolutions, not many of them waiting, that this one is an 
extremely significant one. It is a historic one. We are telling 
the Russian government and the Russian people that we 
understand they are a long ways from a free and democratic 
society, but if they wish to move in that direction, they must 
do it with a free press.
    A free press which is free to criticize the government, 
whether in its military actions as in Chechnya, or whether in 
its domestic policies as the acceptance of political satire as 
part of the game of democratic life. I strongly urge my 
colleagues to vote for this resolution. I yield back, Mr. 
Chairman.
    Mr. Bereuter. Thank you, Mr. Lantos. Despite the other 
duties that Members have in Committee markups and elsewhere, I 
do hope that the public will regard this as a unanimous 
approval of the resolution. The Chair recognizes the gentleman 
from California.
    Mr. Rohrabacher. Thank you very much. Just a couple of 
thoughts. First of all, I salute Mr. Lantos on, again, 
providing leadership on a very important pro-freedom, human 
rights issue that will be of great significance to our future 
and to the future of peace and for the world, not just for 
Russia but for the world.
    It has brought to mind something that happened to me 10 
years ago. I was just a freshman here in Congress, that there 
were some visiting Russians in the city, and some of them had 
been directed to my office, and I was going to be spending the 
weekend here, and it was on a Friday whether they came to my 
office. So I suggested that we all go out and play touch 
football the next day, and they all showed up to play touch 
football the next day, and then I suggested after the football 
game that we all go to the local pub for some intellectual 
discourse and they all went to this--actually, it was the Irish 
Times Pub right here on Capitol Hill, and as the discussion 
became more relevant to the occasion, we decided to find out 
about competition, to teach them what competition was all 
about.
    And we began to have arm wrestling matches with these 
Russians who were visiting the United States, and it just so 
happens that the fellow that I was teamed up against is now the 
president of Russia, Mr. Putin. And I don't know whether I 
should report whether he beat me or not, but I think it is 
important whether you are arm wrestling or whether you are 
engaged in this type of activity that those are people that 
need to feel the pressure, and they need to understand that we 
are not just going to sit by and idly do nothing as they are 
going in the wrong direction.
    We need to put the full force, we need to put some muscle, 
pardon for the pun, but we need to put some muscle behind our 
words, but we need, most of all, to express these thoughts that 
Mr. Lantos has been talking about with our whole heart, so that 
these words will be heard in Russia and will be heard by Mr. 
Putin, because these people are not experienced in democracy. 
They are not experienced in taking criticism. They do not 
understand that in a system for it to succeed, they have to be 
able to accept criticism from the press and from opponents, and 
by speaking forcefully today and giving them this type of 
direction, I think that we are letting Mr. Putin understand 
more about the way the system works, and we are not expressing 
hostility toward them.
    We are expressing that we want Russia to succeed. We want 
Russia to be prosperous and free and at peace and democratic, 
and they are not going to get that way if they end up censoring 
the press. And just like I think we talked to them a little bit 
about American football and Indian wrestling that day, I think 
that maybe today, we can try to express a lesson----
    Mr. Lantos. Will the gentleman yield?
    Mr. Rohrabacher. Yes, sir, I certainly will.
    Mr. Lantos. Knowing of my friend's extraordinary diplomatic 
skills, I am sure he allowed Mr. Putin to win. Therefore, you 
better call him now to sort of urge him to act in the correct 
way.
    Mr. Rohrabacher. Thank you very much. Mr. Chairman, would 
you like me to move forward with this.
    Mr. Bereuter. Let me see for the record if there are any 
other Members seeking recognition. There is a Member seeking 
recognition. The gentleman from California, Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I just want to 
commend Mr. Lantos for his excellent work on this resolution. I 
think we should praise the courage of Vladimir Gusinsky because 
here is a man who had his offices invaded and then the next 
week the puppets were back on television and then they were 
back on television the week after with the Putin puppeteer 
face. This is a man who has shown a dedication to his country, 
toward democracy in his country, toward the free expression of 
thought in his country that should be a model for media tycoons 
in the United States and elsewhere. This man has put his 
country above profitability or even his own freedom.
    The other point I think we can make is that American 
companies should be reluctant to invest in a country that does 
not follow the rule of law and does not protect press freedom, 
does not have real democracy. No one in Russia can be safe to 
criticize that regime. No one in Russia can believe that they 
have a free press when the most powerful of all of the critics, 
the one most likely to be able to defend himself is now in a 
Russian prison, and in fact I am told one of the worst of the 
Russian prisons. So I commend Mr. Lantos for bringing this 
resolution to the Committee.
    Chairman Gilman [presiding]. Are there any other Members 
seeking recognition? If not, I recognize the gentleman from 
California, Mr. Rohrabacher, for a motion.
    Mr. Rohrabacher. Yes, Mr. Chairman. I move that the 
Chairman be requested to seek consideration of the pending 
resolution on the suspension calendar.
    Chairman Gilman. The question is on the motion by the 
gentleman from California, Mr. Rohrabacher. All those in favor 
of the motion signify by saying ``aye.'' All those opposed 
signify by saying ``no.'' The ayes have it. The motion is 
agreed to. Further proceedings on this measure are postponed.


           h. res. 500, relating to the situation in zimbabwe


    We will now move to consideration of H. Res. 500, relating 
to the situation in Zimbabwe. The Chair lays the resolution 
before the Committee. The clerk will report the title of the 
resolution.
    Ms. Bloomer. H. Res. 500, resolution expressing the sense 
of the House of Representatives concerning the violence, 
breakdown of rule of law, and troubled preelection period in 
the Republic of Zimbabwe.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the clerk will read the 
preamble and operative language of the resolution in that order 
for amendment. The clerk will read.
    Ms. Bloomer. Whereas people around the world supported the 
Republic----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    Anyone seeking recognition? Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. Let me begin by 
applauding you on moving quickly with this resolution because 
critical elections are going to be held in Zimbabwe on the 24th 
and 25th. You and Mr. Hastings, working with the Africa 
Subcommittee staff, have put together an important resolution I 
am a cosponsor of, and my hope is that this could be on the 
House floor next week.
    The Africa Subcommittee held a hearing on Zimbabwe on 
Tuesday and in that hearing we heard from Zimbabwe's leading 
opposition figure over the phone and I am more convinced than 
ever that we need to send a strong message to the government in 
Zimbabwe that the United States and the international community 
will be making a hard-nosed assessment of the legitimacy of 
those elections.
    Unfortunately, it is quite clear that these elections leave 
much to be desired because we have seen the spectacle of ruling 
party supporters attacking schools, having taken their cue from 
the Justice Minister who accused the teachers of the country of 
polluting the minds of the young people. The Zimbabwe Teachers 
Association says that at least 200 schools have now been 
attacked, disrupted, and the teachers intimidated. Teachers, 
they report, have been stripped naked in front of their 
students and forced to chant pro-Mugabe slogans. Teachers have 
been beaten unconscious in front of their students. This is 
instigated by a government which professes a concern for 
education. It is no coincidence that teachers served as the 
poll workers in the previous election 4 months ago in which the 
government lost that referendum by a 55-45 margin on expanding 
President Mugabe's powers. So there could be no mistake that a 
message is being sent now to the teachers who are the potential 
poll workers in the upcoming elections.
    The political intimidation has been deadly over the last 
few weeks. At least 31 persons, mostly Black Movement for 
Democratic Change supporters have been killed. Hundreds others 
have been beaten, raped, or forced to flee their homes. There 
are often knocks in the dead of night on the door and requests 
by the secret police to see if you are carrying the papers of 
the party in power or if you are instead associated with the 
opposition.
    Sadly, the rule of law and democracy has long been 
compromised in post-independence of Zimbabwe. It has been a de 
facto one-party state where political opponents have been 
intimidated and physically abused. The United States and the 
international community have swept these troubling realities 
under the rug for years while indulging the Mugabe government 
with aid. U.S. bilateral aid alone has totaled three-quarters 
of a billion dollars.
    This resolution notes that donor-supported land reform 
efforts have been ineffective due to government corruption. In 
fact, the land that has been transferred has been transferred 
to cabinet members and other political associates of President 
Mugabe. It has not gone to Zimbabwean farmers.
    So the results are in. After President Mugabe has played 
the donors like a fiddle for years, Zimbabwe is staring into 
the abyss. It is time we learn from the past. The democratic 
activists in Zimbabwe have shown tremendous courage in the face 
of terrifying and cowardly government attacks while practicing 
nonviolence on their part.
    I know for a fact that this resolution has bolstered their 
morale. This is an important statement, Mr. Chairman, and the 
Congress should be looking to do more. It should be looking to 
do more, yet if the government of Zimbabwe continues on its 
present course, and many of us will be watching the human 
rights and rule-of-law situation during and after these 
elections, and if things don't improve, I will be moving to end 
aid to Zimbabwe. I know many of my colleagues feel likewise. We 
all hope for the best, but it is important that the Mugabe 
government understand that things are different today. There is 
little tolerance for this rule at any cost and I thank you, Mr. 
Chairman, for sponsoring this important resolution.
    Chairman Gilman. Thank you, Mr. Royce.
    Judge Hastings.
    Mr. Hastings. Thank you so very much, Mr. Chairman. I thank 
the Chairman of the Africa Subcommittee, Mr. Royce, as well for 
expediting this matter. I would like to express my strong 
support for H.Res. 500, concerning the recent situation in 
Zimbabwe. Mr. Chairman, this resolution is offered to condemn 
the ongoing spiral of political violence in Zimbabwe eloquently 
spoken to by the Africa Subcommittee chair, my good friend Mr. 
Royce. It urges President Mugabe and the ruling party to 
enforce the rule of law and support international efforts to 
assist land reform.
    Further, it condemns violence directed against farm workers 
and recommends that a bipartisan delegation travel to Zimbabwe 
under the auspices of the International Republican Institute 
and the National Democratic Institute for International Affairs 
for the purpose of monitoring elections scheduled for June 24 
and 25 of this year.
    It is quite unequivocal that the time for gentle prodding 
and subtle messages to the government of Zimbabwe has passed. 
President Mugabe is evidently not listening. He evidently is 
not responding. Thus, the time for quiet diplomacy and behind 
the scenes negotiations should come to an end.
    The United States must voice our loud dissent over the 
existing conditions in this southern Africa nation. We must 
heed the call of all the world's citizens seeking peaceful, 
political, and social justice, whether it is Zimbabwe or Bosnia 
or Kosovo. It is very risky for us to associate ourselves with 
leaders who no longer have the support of their people and 
regimes with undemocratic values. And we must not wait too long 
to answer the cries for liberty in Zimbabwe, for there has 
already been enough bloodshed and loss of lives in that tiny 
nation.
    Mr. Chairman, we must act swiftly to avoid further 
disaster. I continue to believe that with Sierra Leone in a 
state of anarchy, the Democratic Republic of the Congo in a 
battlefield, Ethiopia and Eritrea back in war and other parts 
of the African continent ongoing cataclysmic upheavals, we 
certainly cannot allow Zimbabwe to collapse as well. There is 
still time but only if President Mugabe returns to his senses.
    I implore our colleagues to join you, Mr. Chairman, and all 
of us in sending a strong message to President Mugabe and his 
ruling body to end the violence now, conduct free, fair, and 
transparent elections as scheduled, and uphold the rule of law. 
We also must support the vast majority of people in Zimbabwe 
who are committed to peace and economic prosperity and let them 
know that their aspirations for peace and democracy are not 
lost. Thank you very much, Mr. Chairman.
    Chairman Gilman. Thank you, Judge Hastings.
    Mr. Payne.
    Mr. Payne. Thank you very much. Let me commend the Chairman 
Royce for introducing this legislation and Judge Hastings. I 
join in support of the recommendation. I think that on our 
recent trip led by Amo Houghton and Speaker Gephardt--Leader 
Gephardt, excuse me, we had a good opportunity to meet with Mr. 
Mugabe and members of the opposition forces. We were of course 
primarily concerned about the problem of HIV virus and AIDS and 
for the first time Mr. Mugabe did acquiesce to the fact that it 
has been known that there is a problem with AIDS and for the 
first time has publicly said that he was willing to lend all of 
the government resources that were available to fight this.
    But as we met with that and had a success as relates to the 
dreaded disease there, we certainly were confronted with the 
fact that there had been unfair tactics as relates to the 
upcoming elections.
    The resolution here certainly expresses our concern for the 
violence and a breakdown of law in the preelection period in 
Zimbabwe and it calls for the citizens of Zimbabwe to--we 
support the peaceful demonstrations that have been going on by 
the opposition. We urge the government to uphold the rule of 
law and support international efforts to support land reform. 
It encourages all parties and local media in society to work 
together for a free and fair election and encourages monitors 
to visit there in the upcoming elections.
    There are still two problems, though, going into the 
election. One is about the autonomy of the Electoral 
Supervisory Commission, the ESC and, second, the accreditation 
of observers and polling agents. I think that these issues must 
be dealt with and overcome. I do think that with the 
adventurism by President Mugabe into the Congo, that local 
support has eroded because people felt there were problems at 
home, the unemployment rate, the inflation, and I do believe 
that in order to make a dramatic statement President Mugabe has 
used the question of land reform, which has been a several 
decade problem, but making this the No. 1 issue to attempt to 
gain support for those who are shut out and knocked down. But I 
do urge that President Mugabe allow free and fair elections. I 
do think there are some underlying problems that we ought to 
assist the country of Zimbabwe in once the elections are over, 
and hopefully they are fair and free so that we can add our 
assistance to trying to help them sort out the problems of real 
land reform, the same problems that we have seen in South 
Africa with the distribution of land, the same problem we have 
seen in Namibia, the same problem that was in Zambia. But I 
think once the elections are over, fair and free, hopefully the 
people's voice will be heard and hopefully we will be able to 
sit down with the government of Zimbabwe, with the British, 
with those who are part of the Lancaster House agreement of 20 
years ago, which has never really been fully implemented, and 
perhaps we can resolve the land problem once and for all and 
move toward a better day for the people of Zimbabwe who 
certainly deserve it.
    Thank you very much.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Royce, for an amendment.
    Mr. Royce. Thank you, Mr. Chairman. I have really just a 
technical amendment. The resolution currently reads, Whereas no 
date has been set for parliamentary elections, those dates have 
been set for June 24 and 25. We should make note of that and 
this technical amendment does so.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Bloomer. Amendment offered by Mr. Royce: In the final 
Whereas clause on page two strike the words ``no date has'' and 
insert ``June 24 and June 25 have''.
    [The amendment appears in the appendix.]
    Chairman Gilman. Without objection, the amendment is agreed 
to.
    I will now speak briefly to the resolution.
    There was a time when President Robert Mugabe of Zimbabwe 
spoke passionately and persuasively for justice, liberty and 
majority rule, but destiny led this Jesuit trade schoolteacher 
to become the leader of a liberation movement. But at some 
point during the past 20 years that vision of a peaceful 
democratic Zimbabwe has become twisted and the President seems 
to believe that it is his birth right to rule and that he will 
live forever.
    Earlier this year, the people of Zimbabwe sadly rejected 
the constitutional referendum that would have given the 
President even greater powers. Commercial farmers, both black 
and white, as well as the commercial farmer, who comprise 26 
percent of Zimbabwe's labor force, fought the referendum and 
won.
    Surprised that anyone should dare question his authority, 
the ruling party, at the direction of the President, launched a 
brutal and cynical campaign to cower its political opponents 
into submission. These activities have not gone unnoticed among 
Zimbabwe's neighbors and democratic nations around the world. 
Zimbabwe's law requires that parliamentary elections be held 
within the next few months. The intimidation in state sponsored 
violence that we have observed these past few months are 
designed to keep all power in the hands of the ruling party, 
which currently holds 147 of the--150 seats of the parliament. 
These tactics are not just misjudged. They are also destined to 
fail.
    Every time a farm worker is beaten for asserting his right 
to free speech, ZANU loses support. Every time a Zimbabwe 
soldier dies in the Congo, a war that means nothing to his 
family, ZANU loses its support. President Mugabe has made the 
greatest mistake any politician can make. He has underestimated 
the people he covers.
    H. Res. 500 expresses the House's profound dismay at the 
practices of Zimbabwe's current leadership. It is our sincere 
wish that the people of Zimbabwe who deserve the political 
freedom, as many have fought for, will remain steadfast in a 
peaceful pursuit of democratic reform.
    I commend the Subcommittee on African Affairs, ably led by 
Mr. Royce and Mr. Payne for their excellent hearing on this 
topic yesterday, and I would also like to thank Judge Hastings 
for his original cosponsorship of this resolution and many 
other Members who have offered their sponsorship since the 
resolution was introduced, and I ask that my full statement be 
made part of the record.
    [The prepared statement of Chairman Gilman appears in the 
appendix.]
    Chairman Gilman. Are there any other Members seeking 
recognition?
    Mr. Sherman.
    Mr. Sherman. I want to associate myself with the preceding 
speakers. I think this is an important resolution and the 
recent comments indicate why. I want to add a plea to the 
embassy of the United States in Zimbabwe that it will take 
extraordinary efforts to protect Americans and American 
businesses in Zimbabwe during this period of unrest because it 
is those business activities and tourism that will help 
Zimbabwe in the years to come rebuild its economy.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you. Mr. Lantos, is that on a motion 
on your bill?
    Mr. Lantos. No.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, for the sake of saving time, I 
want to associate myself with the comments of my good friends 
Congressman Hastings and Congressman Payne and to recognize 
their enormous contributions to issues on behalf of human 
rights and democracy globally.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I was just going to 
make a comment or two as I offered in a motion. I would like to 
commend the Chairman and Mr. Hastings for this initiative. The 
Chairman has just given a very strong statement of our concerns 
or actually our outrage over what has happened and, as Mr. 
Hastings says, the time for subtle message has passed. I have a 
hard time referring to Mr. Mugabe as president. It is an 
honorable title. I don't think he deserves it.
    When the gentleman from New Jersey went to speak along with 
others about the scourge of HIV/AIDS, it must have been 
difficult for them to meet with the gentleman despite the 
importance of that issue. I think what Mugabe has done has been 
outrageous. He has encouraged violence. His actions have been 
despicable. He ought to be regarded as an international pariah.
    And I would hope that when this bill is managed on the 
floor that the manager, the Chairman or whoever he might 
designate, would request a record vote on it so that we might 
have unanimous expression of the House of Representatives about 
the conduct that has been going on in Zimbabwe, and I yield 
back the balance of my time.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Payne.
    Mr. Payne. I might just add that the embassy that was 
referred to by Mr. Sherman, the embassy has really been engaged 
in this. I receive several calls a week from the U.S. 
Ambassador to Zimbabwe. They are moving around the country. 
They are really on top of the issue and has shown a tremendous 
concern by like I said, by several calls, and I am sure Mr. 
Hastings and Mr. Royce and others of us have received calls 
from our embassy. So they are really seemingly on target in 
this instance.
    Thank you.
    Chairman Gilman. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman, and let me just say that 
I also want to associate myself with the remarks of Judge 
Hastings and especially Congressman Payne with regard to 
particularly the issues around land reform, and I think we must 
remember that during the liberation struggle and the 
independence struggle the issue was land reform then. Here we 
are now many, many years, what is it, 20 years later in a new 
election and the same issue prevails. The issue is land reform.
    It is important, I believe, for the United States once 
these elections take place, and I fully support this 
resolution. I think it is going to be very important for us to 
not just be bystanders as we move forward in this process 
because I don't want to see us 20 years from now still dealing 
with these issues, especially as they relate to land reform, 
because I think that that has got to be addressed very quickly. 
If not, we will be in the same place 20 years from now.
    Thank you.
    Chairman Gilman. Thank you, Ms. Lee. If there are no other 
Members seeking recognition, the gentleman from Nebraska, Mr. 
Bereuter, is recognized to offer a motion.
    Mr. Bereuter. Thank you, Mr. Chairman. I move that the 
Chairman be requested to seek consideration of the pending 
resolution on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. All those in favor of the motion 
signify by saying aye. All those opposed signify by saying no. 
The ayes have it. The motion is agreed to. Further proceedings 
on this measure are postponed.
    Mr. Lantos.


    h. con. res. 297, congratulating the republic of hungary on the 
                               millennium


    We will now consider H. Con Res. 297, relating to the 
millennium of the founding of Hungary as a state. The Chair 
lays the resolution before the Committee. The clerk will report 
the title of the resolution.
    Ms. Bloomer. H. Con. Res. 297, a resolution congratulating 
the Republic of Hungary on the millennium of its foundation as 
a state.
    [The resolution appears in the appendix.]
    Mr. Lantos. Mr. Chairman.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I move to postpone consideration 
of H. Con. Res. 297 until June 28, 2000 so as to give us 
sufficient time to make it a more balanced and more realistic 
resolution.
    Chairman Gilman. The gentleman is recognized for any 
further time he may seek with regard to his motion.
    Mr. Lantos. Mr. Chairman, the two authors of the resolution 
proceeded with the best of intentions, but there is a subtext 
in the resolution given the current political situation of 
Hungary which compels me to ask for a postponement. The 
resolution, as it can be read and will be read in Hungary, has 
singularly negative connotations which I think will need to be 
corrected. The far right in Hungary is making considerable 
headway. They will use this resolution for their own nefarious 
purposes, and I believe it is imperative that we revise and 
make the resolution more----
    Mr. Bereuter. Will the gentleman yield.
    Mr. Lantos. I will be happy to yield.
    Mr. Bereuter. I thank the gentleman for yielding. I want to 
support the gentleman's motion. I believe there is no one in 
the Congress past or present who understands more about Hungary 
than the gentleman from California. I respect his opinion on 
Hungary from my knowledge of how this resolution would be 
received with the particular provision in it. I believe the 
gentleman is entirely right. I bow to his judgment and I know 
that the gentleman will work to try to advance a resolution 
that would be appropriate and avoid that problem.
    I certainly support you, Mr. Lantos, in your request. Thank 
you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter. Without 
objection, the motion of the gentleman from California is now 
agreed to.


                h. con. res. 275, regarding kuwaiti pows


    We will now consider H. Con. Res. 275, relating to Kuwaiti 
prisoners of war. The Chair lays the resolution before the 
Committee. The clerk will report the title of the resolution.
    Ms. Bloomer. H. Con. Res. 275, concurrent resolution 
expressing the sense of the Congress with regard to Iraq's 
failure to release prisoners of war from Kuwait and nine other 
nations in violation of international agreements.
    [The resolution appears in the appendix.]
    Chairman Gilman. Without objection, the preamble and 
operative language of the resolution will be read in that order 
for amendment. The clerk will read.
    Ms. Bloomer. Whereas in 1990 and 1991, thousands of 
Kuwaitis were randomly----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point. The resolution is in the original jurisdiction of the 
Full Committee, and I now recognize the gentleman from Florida, 
Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman. I want to thank you, 
Mr. Chairman and Congressman Gejdenson, for bringing House 
Concurrent Resolution 275 to the Full Committee for a vote. I 
also want to thank Congressman Rohrabacher and Congressman 
Royce for joining me in introducing this important resolution 
to highlight the unfortunate plight of 605 Kuwaiti POWs who 
remain detained in Iraqi prisons. I know they share my view 
that there is no cause more compelling than the return of 
missing citizens and soldiers.
    In January I traveled to Kuwait, where I met with Kuwaiti 
officials and representatives from the National Committee for 
Missing and POW Affairs and learned about the horrors that took 
place a decade ago when Saddam Hussein's Iraq brutally occupied 
Kuwait for several months in 1990 and 1991. During the 
occupation thousands of Kuwaitis were literally swept off the 
streets and detained in Iraqi prisons. Some were released after 
the end of the Gulf War. There remain, however, 605 Kuwaiti 
POWs in Iraq whose status and well-being are unknown to their 
families and the international community.
    Over the last decade the United States and the 
international community have made every effort to assist the 
Kuwaiti government to secure the release of the missing POWs. 
After the Gulf War the United Nations Security Council passed 
two resolutions calling upon Iraq to arrange for immediate 
access to and release of all prisoners of war under the 
auspices of the International Committee of the Red Cross. Iraq 
has failed to fulfill its obligations to release the prisoners. 
They have hindered and blocked efforts of the tripartite 
commission to locate and secure the release and return of the 
remaining prisoners of war.
    Iraq has also violated article 126 of the Third Geneva 
Convention to which they are a signatory by denying the Red 
Cross access to Iraqi prisons. Although Iraq has thwarted the 
efforts of the Red Cross and the tripartite commission, there 
is strong evidence that the POWs may still be alive in Iraq. 
Iraqi documents left behind in Kuwait chronicle in detail the 
arrest, imprisonment and transfer of a significant number of 
Kuwaitis, including those who are still missing. Eyewitness 
reports from Iraq indicate that many missing soldiers were seen 
alive in Iraqi prisons.
    This resolution will add in securing the release and return 
of the remaining Kuwaiti prisoners of war. The resolution 
condemns Iraq for its refusal to comply with international 
human rights agreements to which it is a party. It also urges 
Iraq to disclose the names and whereabouts of those prisoners 
who are still alive and allow humanitarian organizations to 
visit with the living prisoners.
    Mr. Chairman, the entire nation of Kuwait continues to 
suffer 10 years after the end of the Gulf War. The uncertainty 
surrounding the whereabouts of the missing Kuwaitis has had a 
devastating psychological effect on the people of Kuwait. No 
Kuwaiti family is unaffected by the tragedy. For 10 years 
Kuwaitis have banded together, united and determined to secure 
and return those who were taken without warning and without 
reason.
    I believe this resolution will help keep this powerful 
humanitarian issue at the forefront of international 
consciousness so that individuals and governments throughout 
the world cannot ignore it.
    Mr. Chairman, I also welcome the amendment by Congressman 
Rohrabacher, pertaining to American Navy Lieutenant Commander 
Michael Speicher whose F-18 fighter jet was shot down over Iraq 
on January 16, 1991 and his fate remains uncertain.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. There 
are 605 Kuwaiti MIAs, many of whom are civilians and they have 
been held for over 10 years now. To put this in proportion for 
the people of the United States, this would be the equivalent 
if an enemy of the United States was holding 200,000 Americans 
for a period of 10 years. Think of what the suffering among our 
people and the emotional upheaval in our country would be if 
200,000 Americans were being held by an enemy of the United 
States.
    The fact that Saddam Hussein still holds these people and 
refuses to give an accounting, now obviously some of them are 
dead, but many of them are likely to be alive and many of those 
who are alive or dead are civilians and not military personnel. 
So we must send a message to Saddam Hussein that we take this 
issue very seriously. This is a humanitarian issue. It is a 
human rights issue. It is an issue from which all Americans 
agree is an outrage against humanity as we hear the call go up 
for an end of the sanctions against Iraq. You know we have the 
oil sanctions against Iraq now. We permit them to sell enough 
oil to pay for their food and their medicine. Saddam Hussein 
instead decides to use his discretion to use those resources to 
buy more weapons and to buy more instruments of repression of 
his own people.
    But as these people keep knocking on our door, saying end 
these sanctions against Iraq, let us remind them of the 605 
Kuwaiti MIAs who Saddam Hussein refuses to even give us an 
accounting for, and I would say until he does there should be 
no movement toward opening up any type of relationship with 
Saddam Hussein or Iraq.
    I have an amendment at the desk, Mr. Chairman, which I will 
offer in a moment dealing with Lieutenant Commander Michael 
Speicher, and I will just say like the 605 Kuwaiti MIAs this is 
a man, an American citizen who is yet to be accounted for, and 
this is a serious issue.
    And one last thought before we go on, and that is, it is 
important that we maintain a friendly relationship with the 
people of Kuwait and the government of Kuwait. The fact is that 
our destinies are tied. If for some reason Saddam Hussein were 
to come back into that country and would commit another act of 
aggression, the prestige of the United States of America, our 
ability to deter aggression around the world would be severely 
undermined.
    With that in mind, I think this resolution of Mr. Wexler's 
is vital, but I think it is also vital for the Kuwaitis to 
understand that they have to act as if they are friends of the 
United States as well, and when they are handling their 
economic affairs in terms of their decisions in OPEC, they 
should act as a friend of the United States. We must act as 
their friend because it is in our interest to do so. They 
should act as our friend because it is in their interest to do 
so.
    And with that I strongly support and commend Mr. Wexler for 
his amendment and this great stand, and it is a stand for 
values, for decency, for the things that we should be standing 
for in the United States, and it is in our interest as well. So 
congratulations, Mr. Wexler, and I strongly support your 
amendment. I do have an amendment at the end of the general 
debate to add to this.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I think none of us 
can be shocked by the savagery of Saddam Hussein, a savagery 
that continues to inflict terrible pain on his own people, 
diverting resources away from feeding his children and 
providing medical care. He takes those resources to build 
lavish palaces and to pursue more of his military needs, trying 
to increase his access to weaponry.
    This savagery continues against the people of Kuwait with 
the holding of the Kuwaiti hostages for so long after the 
Kuwaitis, who complied with the U.N. Resolutions, released all 
the Iraqi prisoners they held.
    This savagery cannot be allowed to continue and we cannot 
sit by quietly. I commend my colleague from Florida, Mr. 
Wexler, for his fine effort here and also the gentleman from 
California for the addition of the American pilot and also for 
his reference to the supply of petroleum that affects the 
common security of the United States.
    Americans have taken courageous action, appropriately, to 
protect the Kuwaitis. They have taken every effort to continue 
to contain Saddam Hussein, taking the lead in that role, and 
this Congress cannot sit by as this one more savage act by 
Saddam Hussein continues to inflict pain on the Kuwaiti people.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I want to commend my friend from 
Florida for his very carefully crafted and very important 
resolution, and I want to commend my friend from California Mr. 
Rohrabacher for his amendment.
    I think it is extremely important that we do not allow 
Saddam Hussein to blame the Western powers for whatever 
deprivations are unfolding with respect to the Iraqi people. It 
is fully within Saddam Hussein's power and it is only within 
his power to see to it that the sanctions are lifted and the 
Iraqi people rejoin the community of nations. He has 
persistently refused and sabotaged and undermined the attempts 
of the United Nations to get to the bottom of his attempt to 
build weapons of mass destruction, nuclear, biological, 
chemical and the missile technology for their delivery.
    We must stand firm until Saddam Hussein changes his policy 
or until he is replaced. We deeply regret whatever problems the 
people of Iraq have as a result of his actions but the blame 
must be placed squarely on the shoulders of his outrageous 
dictatorial regime.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Rohrabacher, for his amendment.
    Mr. Rohrabacher. Thank you, Mr. Chairman. As original 
cosponsor I am in strong support of Mr. Wexler's resolution as 
I just said, but my amendment calls for the government of the 
United States----
    Chairman Gilman. Mr. Rohrabacher, let us call up the 
amendment.
    Mr. Rohrabacher. Yes, sir.
    Chairman Gilman. The clerk will read the amendment. And the 
clerk will distribute the amendment.
    Ms. Bloomer. Amendment offered by Mr. Rohrabacher, ``After 
the last whereas clause, add the following, whereas significant 
questions remain----''
    [The amendment appears in the appendix.]
    Chairman Gilman. Without objection, the amendment is 
considered as having been read. Mr. Rohrabacher, on his 
amendment.
    Mr. Rohrabacher. Thank you very much. My amendment calls 
for the governments of the United States, Kuwait and 
international community to make every effort possible to 
resolve the case of Lieutenant Commander Michael Speicher, a 
U.S. Navy fighter pilot who was shot down over Iraq on January 
16, 1991. The Navy declared him killed in action, body not 
recovered the day after the shootdown. However, the military 
did not conduct any search and rescue for him during the war.
    Importantly, since the end of Desert Storm significant 
evidence has been discovered that raises serious questions 
about the fate of this heroic American. Saddam has a history of 
secretly holding on to prisoners for years. Iraq, for example, 
recently released Iranian prisoners of war who Saddam had 
denied holding until the time of their release. Earlier this 
month following a CBS 60 Minutes expose on this case, a Navy 
spokesman told the Washington Post that Lieutenant Commander 
Speicher's status, ``remains very much an open issue. Clearly, 
we dropped the ball.''
    As in the case of the Kuwaiti missing prisoners, Iraq has 
not answered any U.S. inquiries about the pilot. Last week 
bipartisan legislation by the U.S. Senate has called for full 
disclosure of all U.S. defense and intelligence reports 
regarding Lieutenant Commander Speicher.
    Michael Speicher, a patriotic young American who 
volunteered to serve his country, has not been well served by 
his country. During visits to Kuwait in 1998 and again in 1999, 
I asked intelligence officials at the American embassy about 
Lieutenant Commander Speicher. They told me that there is a 
legitimate reason for concern about whether he survived his 
crash and was taken prisoner. These officials told me that they 
welcome congressional support for the United States 
Government's efforts to determine Lieutenant Commander 
Speicher's fate.
    Recently in Jordan, an Iraqi defector told a U.S. official 
that he had driven an American prisoner from the desert to 
Baghdad during the war and this same fellow identified 
Speicher's photo out of a photo lineup as the prisoner he had 
encountered.
    My amendment calls for the United States, the Kuwaiti 
government, and the international community to do everything 
possible to seek information that will resolve the fate of 
Lieutenant Commander Speicher. It also calls on Iraq to 
immediately return this American hero or his remains to the 
International Red Cross for return to the United States.
    My office has already spoken to the Kuwaiti embassy in 
regard to this issue. They are supportive of this amendment. 
This reflects their gratitude toward all Americans who served 
in the Gulf War and liberated their country from Saddam's 
brutal occupation forces. It coincides and parallels directly 
with Mr. Wexler's fine amendment about Kuwaiti MIAs, and I 
would urge my colleagues to support this amendment.
    Chairman Gilman. Thank you, Mr. Rohrabacher. Is a Member 
seeking recognition on the Rohrabacher amendment? If not, 
without objection, the amendment is agreed to.
    I ask that my full statement be made part of the record. 
During the Gulf War thousands of Kuwaitis were randomly 
arrested during the Iraqi occupation. The government in Kuwait 
compiled evidence documenting the evidence of 605 prisoners of 
war. It submitted its file to the International Committee of 
the Red Cross, which passed its files on to Iraq and the United 
Nations.
    I want to commend the gentleman from Florida, Mr. Wexler, 
for his concern in this matter, and for his sponsorship for 
this important humanitarian issue.
    Are any other Members seeking recognition? If not, the 
gentleman from Nebraska Mr. Bereuter is recognized to offer a 
motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. All those in favor of the motion 
signify by saying ``aye.'' All those opposed signify by saying 
``no.'' The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.


      h. res. 259, supporting the goals and ideals of the olympics


    We will now proceed to H. Res. 259.
    I would like to remind our colleagues that we will be going 
into a Full Committee hearing. We will reconvene at the close 
of this meeting into a hearing on the State Department's 
overseas presence to hear Under Secretary Bonnie Cohen, and we 
thank her for her patience while we went through the markup.
    We will now consider H. Res. 259, supporting the goals and 
ideals of the Olympics. The Chair lays the resolution before 
the Committee. The clerk will report the title of the 
resolution.
    Ms. Bloomer. H. Res. 259, resolution supporting the goals 
and ideals of the Olympics.
    [The resolution appears in the appendix.]
    Chairman Gilman. The resolution is within the jurisdiction 
of the Full Committee. Without objection, the clerk will read 
the preamble and operative language of the resolution, in that 
order, for amendment. The clerk will read.
    Ms. Bloomer. Whereas for over 100 years----
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is now open for amendment at 
any point.
    Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I obviously support this 
resolution, but I would like to make a point that relates to 
the location of future Olympic games. A few years ago the 
Chinese Communist government put on a full court press with 
enormous resources to obtain the privilege of holding the 
Olympics this year in Beijing.
    You may recall at that time I introduced a resolution and 
conducted a campaign which resulted in congressional action 
disapproving of Beijing as the location of the 2000 Olympics 
because of the outrageous human rights violations that the 
Chinese Communist regime engaged in at the time and continues 
to engage in. Partly as a result of congressional action, 
partly as a result of action by other democratic nations, by a 
very narrow margin Sydney, Australia, got the opportunity of 
hosting the Olympic games this year, and I certainly welcome 
this outcome, as did all people who consider human rights an 
important element in awarding the venue of Olympic games.
    I would merely like to urge my colleagues as we consider 
locations of future Olympics, both summer and winter, that the 
human rights policies of the government seeking to host Olympic 
games be considered before we indicate by whatever means, 
resolution or speeches, that we favor or oppose these 
locations.
    It is not a matter of indifference as to where Olympic 
games are held. Hosting the Olympic games bestows on a country 
a tremendous degree of international prestige and international 
attention. Hundreds of millions of people watch these on 
television. These become the leading news event during the 
whole period of the Olympics, and I would merely urge my 
colleagues in the future to be vigilant in seeing to it that 
totalitarian countries which suppress human rights not be given 
the privilege of hosting Olympic events.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. As we consider this 
resolution today, I think we should also consider that the 2004 
Olympics will be held in Athens, which is the 100th anniversary 
of the modern Olympic games, and I would hope that our valued 
Greek-American constituents can attempt to have some impact on 
the government of Greece with respect to the terrorist 
organizations that have been plaguing foreigners and civilian 
citizens of that country.
    I am not sure how many people are aware of the fact that 
not too many years ago we had a rocket attack against the U.S. 
embassy in Athens. It was only because of the ineptness of the 
terrorist group that we didn't have severe damage and loss of 
life there, and this terrorist organization seems to go on with 
its killings and its intimidation almost unchecked.
    There are people in the Greek government that are 
extraordinarily concerned and attempting to do something about 
this, and they deserve the support of Greek citizens. They 
deserve encouragement from the U.S. Government and from all 
governments so that we don't have another tragedy like that 
that befell the British brigadier in the last several days.
    I would hope that those friends of Greece, be they Greek-
American or of any other ethnic background, will give every 
encouragement to the government of Greece to come down hard and 
effectively and successfully on this terrorist organization 
which has killed Americans and other foreign nationals as well 
as many Greek citizens.
    I cannot imagine how we can conduct a 2004 Olympics in 
Athens unless this scourge is stopped. We can't have a repeat 
of Munich, where you had strong security and, in fact, you 
still had the tragedy that befell the Israeli delegation 
participation at that point.
    Mr. Chairman, I think it is time for us to say a few words 
about the upcoming 2004 Olympics before it is too late for the 
Greek government to make effective changes in dealing with the 
terrorist organization that is by nature a Marxist organization 
in that country.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I merely wish to identify myself 
and associate myself with the comments of my friend from 
Nebraska.
    Chairman Gilman. Thank you, Mr. Lantos. Next week on June 
23rd, the international community will be marking the 
anniversary of the founding of the modern Olympic games. The 
Olympics are aimed at bringing together the world's athletes to 
participate in friendly, though hard fought competition 
regardless of politics, ideology or other matters extraneous to 
the sport. Our own Olympic champion, the gentleman from Kansas 
Jim Ryun, has introduced this resolution seeking the Congress 
and the American people's recognition of the goals and ideals 
of the modern Olympic movement. I believe that all of the 
Members of our Committee agree that these goals and ideals are 
indeed laudable and worthy of our recognition and support. 
Accordingly, I ask our Committee to unanimously agree to seek 
scheduling of this resolution on the suspension calendar.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. Without objection, the motion is agreed 
to. We will now proceed with our--reconvene into our hearing. 
We will break for just a few minutes, to allow the witnesses to 
take their seats.
    [Whereupon, at 11:40 a.m., the Committee proceeded to other 
business.]
      
=======================================================================

                            A P P E N D I X

                             June 15, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8019.001
    
    [GRAPHIC] [TIFF OMITTED] T8019.002
    
    [GRAPHIC] [TIFF OMITTED] T8019.003
    
    [GRAPHIC] [TIFF OMITTED] T8019.004
    
    [GRAPHIC] [TIFF OMITTED] T8019.005
    
    [GRAPHIC] [TIFF OMITTED] T8019.006
    
    [GRAPHIC] [TIFF OMITTED] T8019.007
    
    [GRAPHIC] [TIFF OMITTED] T8019.008
    
    [GRAPHIC] [TIFF OMITTED] T8019.009
    
    [GRAPHIC] [TIFF OMITTED] T8019.010
    
    [GRAPHIC] [TIFF OMITTED] T8019.011
    
    [GRAPHIC] [TIFF OMITTED] T8019.012
    
    [GRAPHIC] [TIFF OMITTED] T8019.013
    
    [GRAPHIC] [TIFF OMITTED] T8019.014
    
    [GRAPHIC] [TIFF OMITTED] T8019.015
    
    [GRAPHIC] [TIFF OMITTED] T8019.016
    
    [GRAPHIC] [TIFF OMITTED] T8019.017
    
    [GRAPHIC] [TIFF OMITTED] T8019.018
    
    [GRAPHIC] [TIFF OMITTED] T8019.019
    
    [GRAPHIC] [TIFF OMITTED] T8019.020
    
    [GRAPHIC] [TIFF OMITTED] T8019.021
    
    [GRAPHIC] [TIFF OMITTED] T8019.022
    
    [GRAPHIC] [TIFF OMITTED] T8019.023
    
    [GRAPHIC] [TIFF OMITTED] T8019.024
    
    [GRAPHIC] [TIFF OMITTED] T8019.025
    
    [GRAPHIC] [TIFF OMITTED] T8019.026
    
    [GRAPHIC] [TIFF OMITTED] T8019.027
    
    [GRAPHIC] [TIFF OMITTED] T8019.028
    
    [GRAPHIC] [TIFF OMITTED] T8019.029
    
    [GRAPHIC] [TIFF OMITTED] T8019.030
    
    [GRAPHIC] [TIFF OMITTED] T8019.031
    
                                    <all>

</pre></body></html>
